ptmieb States (Kauri af ^Appeals
For The District of Columbia Circuit

No. 19-7148

September Term, 2019
1:16-CV-02049-APM
Filed On: May 14, 2020

Clarence Jackson,
Appellant
v.
Office of the Mayor of the District of Columbia
and District of Columbia Court of Appeals
Admissions Committee,
Appellees

BEFORE:

Henderson, Wilkins, and Rao, Circuit Judges
ORDER

Upon consideration of the motion for summary affirmance and the supplement to the
motion, and the response thereto, it is
ORDERED that the motion for summary affirmance be granted. The merits of the
parties' positions are so clear as to warrant summary action. See Taxpavers Watchdoq,
Inc, v. Stanley. 819 F.2d 294. 297 (D.C. Cir. 1987) (per curiam). The district court correctly
concluded that appellant failed to state a claim upon which relief can be granted. See Fed.
R. Civ. P. 12(b¥6T
To survive a motion to dismiss, the “complaint must contain sufficient factual matter,
accepted as true, to ‘state a claim to relief that is plausible on its face.’” Owens v. BNP
Paribas. S.A., 897 F.3d 266. 272 (D.C. Cir. 2018) (quoting Ashcroft v. Iqbal. 556 U.S. 667.
678 (2009)). A complaint only establishes a facially plausible claim if it “sets forth ‘factual
content that allows the court to draw the reasonable inference that the defendant is liable for
the misconduct alleged.’” ]d (quoting Iqbal. 556 U.S. at 6781.
The district court correctly held that appellant failed to plausibly allege exclusion from
the bar exam based on disability, see 42 U.S.C. S 12132. thus properly dismissing his
claim under the Americans with Disabilities Act of 1990, 42 U.S.cl § 12101 etseq.
Appellant further failed to allege any facts to support the existence of either an express or
implied contract with either appellee. See Novecon Ltd, v. Bulqarian-Am. Enter. Fund, 190
F.3d 556. 564 (D.C. Cir. 1999); Jordan Keys & Jessamy, LLP v. St. Paul Fire & Marine Ins.

ptmteit

(Eonxt af Jkppezd&
For The District of Columbia Circus

No. 19-7148

September Term, 2019

Co., 870 A.2d 58. 62 (D.C. 2005). And appellant has failed to state a claim under either the
Sixth or Thirteenth Amendment. See Turnery, Rogers. 564 IJ.S. 481.441 (2011) (“[T]he
Sixth Amendment does not govern civil cases.”); Richardson v. Loyola Coll, in Maryland.
Inc., 167 F. App'x 223. 225 (D.C. Cir. 2005) (“[T]he Thirteenth Amendment does not
provide an independent cause of action for discrimination.”).
Appellant’s Fourteenth Amendment equal protection and due process claims, which
this court construes as arising under the Fifth Amendment, see Jackson v. Office of the
Mayor of D.C., 911 F.3d 1167. 1170 n.1 (D.C. Cir. 2018), fare no better. Appellant vaguely
alleged that his exclusion from the bar exam “appears to be” a discriminatory act, but this
assertion is a legal conclusion that the court is not required to accept as true. See Iqbal,
556 U.S. at 678 (2009). Further, because appellant could not claim a protected interest in
sitting for the bar exam without satisfying the prerequisites of paying the required fees and
providing proof of law school graduation, his procedural due process claim was also
correctly dismissed. See Bd. of Regents v. Roth. 408 IJ.S. 564 577 (1972) (explaining that
“[t]o have a property interest in a benefit” a person must “have a legitimate claim of
entitlement to it”). And the district court properly dismissed appellant’s substantive due
process claim in light of his failure to allege facts that amount to “egregious government
misconduct.” George Washington Univ. v. District of Columbia. 318 F.3d 206 209 rn r.
Cir. 2003).
The district court also correctly dismissed appellant’s intentional and negligent
infliction of emotional distress claims. Appellant’s allegations regarding the District of
Columbia Court of Appeals Admissions Committee’s decision to deny his bar application
and the Office of the Mayor of the District of Columbia’s handling of the review of that denial
do not amount to “extreme and outrageous conduct.” See Smith v. United States. 843 F 3d
509. 515 (D.C. Cir. 2016). Nor did appellant allege that he was in a "zone of danger" and
feared for his own safety, or that appellees had a "relationship" with him that "implicate^]”
his “emotional well-being." See Hedgepeth v. Whitman Walker Clinic. 22 A.3d 789
796-98 810-11 (D.C. 2011).
Furthermore, the district court’s October 29, 2019, order denying appellant’s request
for payment on judgment was proper. This court’s previous judgment dated December 28,
2018, did not terminate the district court case in appellant’s favor. See Jackson, 911 F.3d
1167 at 1171. Moreover, pro se litigants may not recover attorney’s fees, see Kav v. Ehrler.
499 U.S. 432. 435 (1991), and appellant was granted leave to appeal in forma pauperis,
see Jackson v. Office of the Mayor of D.C.. No. 17-7056 (D.C. Cir.). Therefore, he
incurred no recoverable costs. See Fed. R. Ann. P. 39feT Finally, because appellant did
not prevail on the merits of his complaint, he is not entitled to injunctive relief.

Page -2-

(Kourt of appeals
For The District of Columbia Circuit

No. 19-7148

September Term, 2019

Pursuant to D.C. Circuit Rule 36, this disposition will not be published. The Clerk is
directed to withhold issuance of the mandate herein until seven days after resolution of any
timely petition for rehearing or petition for rehearing en banc. See Fed R Ann. P. 4lfhV
D.C. Cir. Rule 41.
Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

\

Page -3-

Is/
Manuel J. Castro
Deputy Clerk

t

Case l:16-cv-02049-APM Document 46 Filed 10/29/19 Page 1 of 1

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

CLARENCE JACKSON,
Plaintiff,
v.
OFFICE OF THE MAYOR OF THE
DISTRICT OF COLUMBIA, et al.,
Defendants.

)
)
)
)
)
)
)
)
)
)
)

Case No. l:16-cv-02049 (APM)

ORDER
For the reasons stated in the accompanying Memorandum Opinion, ECF No. 45,
Defendants’ Renewed and Narrowed Motion to Dismiss Plaintiffs Complaint, ECF No. 37, is
granted. The Complaint and this matter are therefore dismissed.
This is a final, appealable order.

Dated: October 29,2019

Amit P. Mehta""
Uniteeraates District Judge

page 1

Case l:16-cv-02049-APM Document 45 Filed 10/29/19 Page 1 of 11

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

)
)
)
)
)
)
)
)
)
)
)

CLARENCE JACKSON,
Plaintiff,
v.
OFFICE OF THE MAYOR OF THE
DISTRICT OF COLUMBIA, et al.,
Defendants.

Case No. l:16-cv-02049 (APM)

MEMORANDUM OPINION
I.
Pro se Plaintiff Clarence Jackson alleges that Defendants Office of the Mayor of the
District of Columbia and the District of Columbia Court of Appeals Committee on Admissions
(“COA”) improperly denied him the opportunity to take the District of Columbia bar exam for a
fifth time. See Compl., ECF No. 1, at 2-3. Construed liberally, Plaintiffs Complaint asserts the
following claims: (1) violation of the Sixth, Thirteenth, and Fourteenth Amendments of the
United States Constitution; (2) discrimination under the Americans with Disabilities Act (“ADA”);
(3) breach of contract; and (4) intentional and negligent infliction of emotional distress.
See generally id.
The court now considers, on remand, Defendants’ Renewed and Narrowed Motion to
Dismiss Plaintiffs Complaint. For the reasons that follow, Plaintiffs claims and this matter are
dismissed in their entirety.

Case l:16-cv-02049-APM Document 45 Filed 10/29/19 Page 2 of 11

II.
A.
The facts alleged are as follows. On November 19, 2010, Plaintiff applied to sit for the
District of Columbia bar for a fifth time. See Notice of Filing, ECF No. 11 [hereinafter Notice of
Filing II], at 36.'l Plaintiff, however, failed to pay the required fees and to provide proof of law
school graduation. So, on November 24, 2010, the COA denied Plaintiffs application for those
reasons. Id. at 37 (notice to Plaintiff from the COA).
Five years later, on December 31, 2015, Plaintiff filed suit against the COA in
D.C. Superior Court. Plaintiff claimed that the denial of his application constituted a breach of
contract, intentionally inflicted emotional distress, and violated his rights under the Fourteenth
Amendment. See Defs.’ Mot. to Dismiss, ECF No. 17 [hereinafter Defs.’ Mot.], at 2-3; see also
id., Ex. A, ECF No. 17-1 [hereinafter D.C. Super. Ct. Docket].

On April 1, 2016, the

D.C. Superior Court granted, without explanation, the COA’s motion to dismiss the complaint.
See Notice of Filing, ECF No. 10 [hereinafter Notice of Filing I], at 14.
On or about April 5, 2016, Plaintiff filed a petition with the D.C. Mayor’s Office,
apparently seeking to challenge the COA’s refusal to let him sit for the bar exam. See id. at 5.
The Mayor’s Office denied the petition because “[a] lawsuit has been filed for this claim.” Id.
Plaintiff appealed this decision to the D.C. Court of Appeals, but the court denied the appeal as
untimely. See id. at 24.
On April 7, 2016, Plaintiff asked the D.C. Superior Court to clarify why it dismissed his
complaint. That request went unanswered for more than a year. See id. at 13.

1 Plaintiff explains that the documents submitted with his Notice of Filing are “germane to the issues outlined in his
Complaint.” Notice of Filing I at 2. The court therefore treats these documents as incorporated into the Complaint,
and thus may consider them on Defendants’ motion to dismiss. See EEOC v. St. Francis Xavier Parochial School,
117 F.3d 621, 624 (D.C. Cir. 1997).

2

Case 1:16-cv-02049-APM Document 45 Filed 10/29/19 Page 3 of 11

Plaintiff filed this action on October 11, 2016. See Compl. He sued both the COA and
the Mayor’s Office, challenging the COA’s denial of his application to sit for the bar exam and the
Mayor Office’s refusal to review that decision. See id. at 1-3. The Complaint asserts multiple
claims, including violations of the Sixth, Thirteenth, and Fourteenth Amendments, as well as the
ADA. Plaintiff also advances causes of action for breach of contract, intentional infliction of
emotional distress, and negligent infliction of emotional distress. See id. at 3-4.
B.
In March 2017, the court granted Defendants’ motion to dismiss, finding the action barred
by three doctrines: Rooker-Feldman, Younger abstention, and res judicata. See Jackson v. Office
of the Mayor ofD.C., No. 1:16-CV-02049 (APM), 2017 WL 932990, at *2 (D.D.C. Mar. 8, 2017).
In December 2018, the Court of Appeals reversed, holding each doctrine inapplicable.
See Jackson v. Office of the Mayor of D.C., 911 F.3d 1167, 1170-71 (D.C. Cir. 2018).
It remanded the case for this court to consider the alternative bases for dismissal not previously
considered. Id. at 1171-72.
On remand, Defendants renewed their motion to dismiss, advancing the following grounds
for dismissal: (1) Plaintiff fails to state a claim; (2) the COA is immune from suit; (3) the claims
against the COA are time-barred; and (4) Plaintiff failed to give the District of Columbia notice of
his intentional and negligent infliction claims as required by D.C. Code § 12-309. See generally
Defs.’ Renewed and Narrowed Mot. to Dismiss, ECF No. 37 [hereinafter Defs.’ Renewed Mot.].
Plaintiff did not offer a new response to the Renewed Motion. Instead, he indicated only that he
was “oppose[d] to any and all filings by [Defendant in this case since its pendency in this court”
and that his “pre-appeal response to [DJefendanf s motion to dismiss will be renewed again.”

3

Case l:16-cv-02049-APM Document 45 Filed 10/29/19 Page 4 of 11

Response to Order of the Court, ECF No. 41,

3-4.2 The court therefore treats Plaintiffs earlier-

filed response to Defendants’ original motion as his opposition to Defendants’ Renewed Motion.
See Pl.’s Resp. to Defs.’ Mot. to Dismiss, ECF No. 20.
III.
A.
The court finds that Plaintiff fails to state a claim as to each cause of action. To survive a
motion to dismiss for failure to state a claim, a complaint must contain sufficient factual matter,
accepted as true, to “state a claim to relief that is plausible on its face.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007). “A claim has facial plausibility when the plaintiff pleads
factual content that allows the court to draw the reasonable inference that the defendant is liable
for the misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). A pleading that offers
“labels and conclusions” or “a formulaic recitation of the elements of a cause of action will not
do.” Twombly, 550 U.S. at 555. Nor will a complaint survive if it tenders “naked assertion[s]”
devoid of “further factual enhancement.” Id. at 557.
ADA Claim.

Starting with Plaintiffs ADA claim, Title II of the ADA prohibits

discrimination on the basis of a disability by any “public entity.” See 42 U.S.C. § 12132. To
state a claim under Title II, a plaintiff must allege that: (1) he is a “qualified individual with a
disability”; (2) who “was either excluded from participation in or denied the benefits of a public
entity’s services, programs, or activities, or was otherwise discriminated against by the public
entity”; and (3) that “such exclusion, denial of benefits, or discrimination was by reason of his

2 Plaintiff also filed what he labeled a “Motion for Judgment.” ECF No. 42. This filing, however, is “Part II,” see
id. at 1, of an earlier filing made by Plaintiff, see Request for Payment on Judgment, ECF No. 36, seeking costs
associated with successful appeal. The court will address this motion in a separate order.

4

Case l:16-cv-02049-APM Document 45 Filed 10/29/19 Page 5 of 11

disability.” Sacchetti v. Gallaudet Univ., 344 F. Supp. 3d 233, 269 (D.D.C. 2018) (internal
quotation marks omitted). Plaintiff fails to satisfy these pleading requirements.
In his Complaint, Plaintiff states that he “became totally disabled and partially paralyzed
in 2011” after taking the bar exam four times. Compl. at 3. He further contends that “for no
reason the [COA] refused to grant permission to take the exam the fifth time” and “[g]iven that
plaintiff new realized disability as of 2011, placed plaintiff not only to request to take the exam
again but also accommodation in the area of whatever is available for a generic black male with
partial paralysis on the left side of his frame.” Id. But critically, and fatal to his ADA claim, is
the absence of any allegation that he actually notified the COA of his disability or that the COA
had any reason to suspect a disability. As Defendants point out, Plaintiff marked “no” in response
to a question on the bar registration form asking, “Are you filing a request for testing
accommodations for taking the bar examination?” See Notice of Filing II at 36. In addition,
Plaintiff has not plausibly alleged exclusion from the bar exam based on disability. The COA
refused to allow him to sit for the bar because he did not pay the requisite fee and failed to produce
proof of law school graduation. See id. at 37. Plaintiff makes no factual allegation to overcome
this non-discriminatory reason for denying his application.
Finally, Plaintiff makes no allegation as to the Mayor’s Office that would support an ADA
claim against it. He therefore fails to state a claim under the ADA as to either defendant.
Sixth and Thirteenth Amendment Claims. Plaintiff fails to state a claim under the Sixth
and Thirteenth Amendments for a straightforward reason: neither Amendment confers a private
right of action.

See Turner v. Rogers, 564 U.S. 431, 441 (2011) (noting that “the Sixth

Amendment does not govern civil cases”); Richardson v. Loyola College in Md., Inc., 167 Fed.
App’x. 223, 225 (D.C. Cir. 2005) (per curiam) (“[T]he Thirteenth Amendment does not provide
5

Case l:16-cv-02049-APM Document 45 Filed 10/29/19 Page 6 of 11

an independent cause of action for discrimination.”); Doe v. Siddig, 810 F. Supp. 2d 127, 135-36
(D.D.C. 2011) (reviewing cases and noting that “[c]ourts in this Circuit have consistently held that
there is no private right of action under the Thirteenth Amendment”).
Fourteenth Amendment Claims.

Under the banner of the “Fourteenth Amendment, »3

Plaintiff asserts equal protection, substantive due process, and procedural due process violations.
With respect to the COA, Plaintiff asserts that his “exclusion . .. from the licensing process ...
appears to be an act of a very racial discriminatory gender based practice and pattern.” Compl. at
3, H 3. Plaintiff insists that “discovery ... could easily expose the relentless attack against generic
black men that’s design[ed] to completely block them from receiving equal treatment on the level
of all other groups when attempting to qualify for [attorney work in [Washington D.C.” Id. at
3,1| 4. As for the Mayor’s Office, Plaintiff alleges that “the refusal to grant plaintiff a hearing,”
the “refusal to sure-up whatever process in place that would guarantee the delivery of mail on
time,” the “refusal by the Mayor’s Office to provide the results of the requested discovery before
a decision was made,” and the “blatant compromise of impartiality by the appeal process” violated
his due process rights. Id. at 3, 1f 5. None of these allegations is sufficient to make out a
constitutional claim.
Like any litigant, “apro se complainant must plead ‘factual matter’ that permits the court
to infer ‘more than the mere possibility of misconduct.’” Atherton v. D.C. Office of Mayor, 567
F.3d 672, 681-82 (D.C. Cir. 2009) (quoting Iqbal, 556 U.S. at 679). Plaintiffs equal protection
claim lacks any factual support. He simply makes the conclusory assertion that the COA refused
to let him sit for the bar exam, ostensibly due to “what appears to be an act of a very racial

3 The Fourteenth Amendment does not apply to the District of Columbia, but the precepts of equal protection and due
process are applicable to the District through the Fifth Amendment. See Bolling v. Sharpe, 347 U.S. 497, 498-99
(1954).

6

Case l:16-cv-02049-APM Document 45 Filed 10/29/19 Page 7 of 11

discriminatory gender based practice and pattern.” Compl. at 3, | 3 (emphasis added). Such a
conclusory allegation falls far short of asserting a plausible claim. See Atherton, 567 F.3d at 68788 (finding pro se plaintiffs equal protection claim based on “spare facts and allegations”
inadequately pleaded); Colbert v. Metro. Police Dep’t, Dist. 5, 404 Fed. App’x 509 (D.C. Cir.
2010) (per curiam) (“The district court properly dismissed appellant’s complaint for failure to state
a claim upon which relief could be granted because the complaint failed to allege sufficient facts
to support a claim of discrimination.”); Hodge v. U.S. Postal Serv., 161 Fed. App’x 19, 19-20
(D.C. Cir. 2005) (per curiam) (affirming dismissal of equal protection claim where the complaint
failed to “allege facts indicating . . . that the alleged actions were undertaken on a discriminatory
basis or were motivated by discriminatory intent or purpose”).
Plaintiffs due process claims fare no better. To determine whether the government has
violated a procedural due process right, courts ask “whether the plaintiffs were deprived of a
protected interest, and, if so, whether they received the process they were due.” UDC Chairs
Chapter, Am. Ass’n ofUniv. Professors v. Bd. of Trustees oflJniv. of D.C., 56 F.3d 1469, 1471
(D.C. Cir. 1995). Property interests are “created and their dimensions are defined by existing
rules or understandings that stem from an independent source such as state law—rules or
understandings that secure certain benefits and that support claims of entitlement to those
benefits.” Bd. of Regents v. Roth, 408 U.S. 564, 577 (1972). “To have a property interest in a
benefit, a person clearly must have more than an abstract need or desire for it. He must have more
than a unilateral expectation of it. He must, instead, have a legitimate claim of entitlement to it.”
Id. Here, it is unclear what “protected interest” Plaintiff claims the Mayor’s Office denied him.
If it his “interest” in sitting for the bar, he has not alleged facts establishing his entitlement to that
benefit. The COA denied Plaintiff the opportunity to sit for the bar because he failed to pay the
7

Case 1:16-cv-02049-APM Document 45 Filed 10/29/19 Page 8 of 11

required fees and because he failed to produce proof of law school graduation. Notice of Filing
II at 37. Plaintiff cannot claim a “protected interest” in sitting for the bar without having satisfied
these basic conditions.
What’s more, Plaintiff fails to plausibly allege any entitlement to the process he claims to
have been denied. Plaintiff complains that the Mayor’s Office refused to grant him a hearing,
failed to ensure on-time delivery of mail, and refused to provide discovery. Compl. at 3, ^ 5. But
nothing in Plaintiffs Complaint renders it plausible that the Mayor’s Office owed him any process
to complain about the COA’s decision after the D.C. Superior Court already rejected his claim.
In other words, Plaintiff offers nothing to support the proposition that he was entitled to
administrative review of the COA’s actions after his efforts at judicial review proved unsuccessful.
Plaintiff also fails to allege a substantive due process violation.

“[T]he doctrine of

substantive due process constrains only egregious government misconduct.” George Washington
Univ. v. District of Columbia, 318 F.3d 203, 209 (D.C. Cir. 2003). Plaintiffs Complaint contains
no facts that would support “egregious government misconduct.” Plaintiffs substantive due
process claim therefore fails.
Breach of Contract. Plaintiffs claim for breach of contract founders for the simple reason
that he alleges no facts that would support the existence of an enforceable agreement with either
the COA or the Mayor’s Office.
Intentional and Negligent Infliction of Emotional Distress. Plaintiff avers no facts to
establish either an intentional or negligent infliction of emotional distress claim. He does not
allege extreme and outrageous conduct to support the intentional tort. See Newmyer v. Sidwell
Friends Sch., 128 A.3d 1023, 1037 (D.C. 2015). Nor does he allege facts that would support the

8

Case l:16-cv-02049-APM Document 45 Filed 10/29/19 Page 9 of 11

limited circumstances in which negligent infliction is a cognizable claim.

See generally

Hedgepeth v. Whitman Walker Clinic, 22 A.3d 789, 799-800, 810-11 (D.C. 2011).
B.
In addition to failing to state a claim, Defendants’ causes of action against the COA are
time-barred. The court recognizes that dismissal on limitations grounds is disfavored on a motion
to dismiss. See Firestone v. Firestone, 76 F.3d 1205, 1209 (D.C. Cir. 1996). Dismissal is
appropriate “only if the complaint on its face is conclusively time-barred.” Id. A complaint is
“conclusively time-barred” if “a trial court determines that the allegation of other facts consistent
with the challenged pleading could not possibly cure the deficiency.” Id. (internal quotation
marks omitted); see also Momenian v. Davidson, 878 F.3d 381, 387 (D.C. Cir. 2017).
The limitations period for each of Plaintiff s claims is three years. See Di Leila v. Univ.
of D.C. David A. Clarke Sch. of Law, 570 F. Supp. 2d 1, 7-8 n.9 (D.D.C. 2008) (noting that “[i]n
the District of Columbia, the three-year personal injury statute of limitations applies to non­
employment claims of discrimination brought pursuant to the ADA”); Earle v. District of
Columbia, 707 F.3d 299, 304-05 (D.C. Cir. 2012) (recognizing three-year limitations period for
constitutional claims under section 1983); LoPiccolo v. Am. Univ., 840 F. Supp. 2d 71,79 (D.D.C.
2012) (recognizing three-year statute of limitations for negligent infliction of emotional distress));
Rendall-Speranza v. Nassim, 107 F.3d 913, 920 (D.C. Cir. 1997) (“[T]he D.C. Court of Appeals
has held that an independent action for intentional infliction of emotional distress is subject to the
District’s three-year residual limitation period, D.C. Code § 12-301(8).”); Mizell v. SunTrust Bank,
26 F. Supp. 3d 80, 87 (D.D.C. 2014) (holding that “[t]he applicable statute of limitations for breach
of contract in the District of Columbia is three years” (citing D.C. Code § 12-301(7))).

9

Case l:16-cv-02049-APM Document 45 Filed 10/29/19 Page 10 of 11

The denial of Plaintiff s application to take the bar exam a fifth time occurred on November
24, 2010. See Notice of Filing II at 37. Yet, Plaintiff waited nearly six years to bring this
action—filing it on October 11,2016. See Compl. Nothing in Plaintiffs Complaint supports the
timeliness of filing this action against the COA almost three years after the limitations period
expired.

Further, the court can conceive of no additional facts that Plaintiff could allege

consistent with his challenged pleading that would cure the timing deficiency. See Firestone,
76 F.3d at 1209. Therefore, Plaintiffs claims against the COA are conclusively time-barred.
C.
Finally, Plaintiff failed to timely give notice of his intentional and negligent infliction
claims to the District of Columbia. A plaintiff suing the District of Columbia or any of its
agencies for unliquidated damages must provide written notice of the claims to the District within
six months of the alleged injury. See D.C. Code § 12-309; Brown v. District of Columbia, 853
A.2d 733, 736 (D.C. 2004) (“[Cjompliance with [§ 12-309] is mandatory as a prerequisite for
filing suit against the District.” (alteration in original) (internal quotation marks omitted)). The
COA caused Plaintiffs alleged injury in November 2010, and the Mayor’s Office did so in May
2016. See Notice of Filing I at 5; Notice of Filling II at 37. Plaintiff gave the District no
administrative notice of his emotional distress claims within six months of those dates. Those
claims are therefore dismissed for this additional reason.4

4 The court does not reach the issue of whether the COA is immune from suit. See Renewed Motion at 15. Although
it is clear that individual committee members enjoy absolute immunity from suit, see Simons v. Bellinger, 643 F.2d
774, 786 (D.C. Cir. 1980), it is not certain whether such immunity extends to the COA itself.

10

Case l:16-cv-02049-APM Document 45 Filed 10/29/19 Page 11 of 11

IV.
Accordingly, Defendants’ Renewed and Narrowed Motion to Dismiss Plaintiffs
Complaint is granted. A separate final order accompanies this Memorandum Opinion.

KA »

K

.^•Amit P. Mehta
fmted States District Court Judge

Dated: October 29, 2019

11

JStates (ttnurt ai ^Appeals
For The District of Columbia Circuit

No. 19-7148

September Term, 2020
1:16-CV-02049-APM
Filed On: September 18, 2020

Clarence Jackson,
Appellant
v.
Office of the Mayor of the District of Columbia
and District of Columbia Court of Appeals
Admissions Committee,
Appellees

BEFORE:

Henderson, Wilkins, and Rao, Circuit Judges
ORDER

Upon consideration of the petition for rehearing, it is
ORDERED that the petition be denied.
Per Curiam
T

FOR THE COURT:
Mark J. Langer, Clerk
BY:

page 5

/s/
Daniel J. Reidy
Deputy Clerk

Additional material
from this fifing is
available in the
Clerk's Office.

